No. 20-1008

 

Supreme Court of the United States

STATE FARM LIFE INSURANCE COMPANY,
Petitioner,
v

MICHAEL G. VoerT,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE EIGHTH CIRCUIT

CERTIFICATE OF SERVICE

I, David W. Ogden, a member of the bar of this Court, hereby certify that, on this
26th day of February, 2021, all parties required to be served have been served copies of
the Motion for Leave to File Brief as Amicus Curiae and Brief of the American Council
of Life Insurers as Amicus Curiae in Support of Petitioner in this matter by overnight
courier to the addresses below.

Theodore J. Boutrous Jr. Norman E. Siegel

Gibson, Dunn & Crutcher LLP Stueve Siegel Hanson, LLP
333 South Grand Avenue 460 Nichols Road, Suite 200
Los Angeles, CA 90071 Kansas City, MO 64112
(218) 229-7804 (816) 714-7112
tboutrous@gibsondunn.com siegel@stuevesiegel.com

Vast bh) Opdbon/ 2005
DAVID W. OGDEN
WILMER CUTLER PICKERING

HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
david.ogden@wilmerhale.com
